               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




            Business Mail Acceptance
             Centralization Process

                       Audit Report




                                         September 23, 2011

Report Number FF-AR-11-015
                                                                     September 23, 2011

                                              Business Mail Acceptance Centralization
                                                                            Process

                                                           Report Number FF-AR-11-015



IMPACT ON:
Location of bulk business mail                 results; developing tools to monitor and
acceptance (BMA) facilities, operational       manage BMA workhour performance to
efficiency, and customers who enter            achieve a 93 percent efficiency rate; and
mail at BMA facilities.                        establishing annual goals for business
                                               BMA workhour efficiency to include
WHY THE OIG DID THE AUDIT:                     measuring performance against goals.
Our objectives were to evaluate U.S.
Postal Service efforts to centralize the       WHAT MANAGEMENT SAID:
BMA process and assess opportunities           Management partially agreed with the
for additional centralization.                 four recommendations, indicating they
                                               will update guidance, evaluate additional
WHAT THE OIG FOUND:                            centralization opportunities following
We determined approximately                    network optimization, develop a tool to
one-third of Postal Service districts          assist the field with staffing and
successfully centralized business mail         scheduling, and develop performance
entry network to varying degrees. In           metrics. Management disagreed with
return, districts reported workhour            the monetary impact and believed a
savings, improved customer service,            93 percent efficiency goal was too high,
enhanced revenue protection, increased         as was the monetary impact calculation.
productivity, and improved compliance
with Sarbanes-Oxley. However, the              AUDITORS’ COMMENTS:
Postal Service did not adopt BMA               Management’s comments were
centralization nationally by requiring         generally responsive to the
field units to conduct and act on              recommendations and should resolve
centralization feasibility studies.            the issues identified in the report. We
Consequently, we identified                    believe the 93 percent goal and
opportunities to further centralize BMA        associated monetary impact are
and increase operational efficiency,           reasonable and attainable. In fiscal year
saving approximately $60 million               (FY) 2010, BMA operations in
annually related to overtime.                  16 districts achieved or were close to
                                               achieving 93 percent efficiency. Further,
WHAT THE OIG RECOMMENDED:                      in FY 2009, the lowest retail efficiency
We recommended revising and                    goal was 93 percent. With increased
clarifying centralization feasibility study    focus, we believe BMA operations can
guidance; requiring districts to conduct       achieve the same efficiency.
such studies, review and document
results, and take action based on the          Link to review the entire report
September 23, 2011

MEMORANDUM FOR:            PRITHA MEHRA
                           VICE PRESIDENT, MAIL ENTRY AND PAYMENT
                           TECHNOLOGY




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Business Mail Acceptance
                           Centralization Process (Report Number FF-AR-11-015)

This report presents the results of our audit of the Business Mail Acceptance
Centralization Process (Project Number 11BD004FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Field Financial, East, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Ellis A. Burgoyne
    Joseph Corbett
    All Area Operations Vice Presidents
    Corporate Audit and Response Management
                                                 TABLE OF CONTENTS


Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Centralizing BMA ................................................................................................................. 1

Opportunities to Further Centralize BMA ........................................................................... 3

Operational Benefits of Centralizing BMA .......................................................................... 5

Improving Operational Efficiency ........................................................................................ 6

Other Matters ....................................................................................................................... 7

Recommendations .............................................................................................................. 7

Management’s Comments .................................................................................................. 8

Evaluation of Management’s Comments ............................................................................ 8

Appendix A: Additional Information................................................................................... 10

   Background .................................................................................................................... 10

   Objectives, Scope, and Methodology ........................................................................... 11

   Prior Audit Coverage ..................................................................................................... 12

Appendix B: Monetary Impact ........................................................................................... 13

Appendix C: Management’s Comments ........................................................................... 14
Business Mail Acceptance Centralization Process                                                           FF-AR-11-015




Introduction

This report presents the results of our audit of the business mail acceptance (BMA)
centralization process (Project Number 11BD004FF000). This audit addresses financial
risk. Our objectives were to evaluate U.S. Postal Service efforts to centralize BMA
operations and assess the opportunity for additional centralization. See Appendix A for
additional information about this audit.

Permit Imprint and Periodicals business mailings accounted for $31.2 billion in Postal
Service revenue in fiscal year (FY) 2010. This revenue was reported for 19,639 units
nationwide. Permit Imprint and P eriodicals mailings have no postage affixed to them
and must meet preparation standards to qualify for discounted rates. 1 Properly
accepting these and other business mailings is critical for the Postal Service to ensure
that processing costs align with associated revenue. Business mail entry units (BMEUs)
have dedicated acceptance staff with specialized training. Local retail units can also
accept business mail; however, retail unit personnel may receive mailings infrequently
and often have little mail acceptance training. Although Postal Service Headquarters
BMA officials developed Business Mail Entry Centralization Standard Operating
Procedures (SOP) in November 2008, only 26 districts decided to centralize BMA at
larger units with more experienced personnel and better controls.

Conclusion

The Postal Service did not consistently centralize BMA operations and opportunities
exist for additional centralization. Although management provided suggested guidance,
they did not require field units to conduct and act on centralization feasibility study
results but rather allowed field managers to decide whether centralization was
appropriate. We determined that approximately one-third of Postal Service districts
(26 of 74 2) successfully centralized the business mail entry network to varying degrees.
Districts reported workhour savings, improved customer service, enhanced revenue
protection, increased productivity, and improved compliance with Sarbanes-Oxley
(SOX) requirements. Additionally, districts that previously centralized could benefit from
further centralization. Consequently, we believe the Postal Service could save about
$60 million annually by more efficiently using mail acceptance workhours.

Centralizing BMA

Management did not require field units to conduct and act on centralization feasibility
study results. Rather, the Postal Service allowed area and district managers to decide
whether to study the feasibility of mail acceptance centralization and centralize as
appropriate. The Postal Service issued the Business Mail Entry Centralization SOP in


1
 The Postal Service publishes preparation requirements and rate charts in the Domestic Mail Manual.
2
 The number of districts that existed prior to the March 2011 realignment. Currently, there are 67 districts in the
nation.
                                                           1
Business Mail Acceptance Centralization Process                                                            FF-AR-11-015



November 2008 to address requests from field offices for a standardized process to
centralize their business mail operations.

BMA managers stated they did not want to require centralization because
Postal Service area personnel manage BMA workhours. However, other headquarters
functional areas developed and implemented strategies to consolidate operations and
achieve gains in efficiency. For example, Area Mail Processing (AMP) 3 and Delivery
Unit Optimization (DUO) 4 initiatives use capacity at larger facilities by shifting the
workload from smaller sites. At the headquarters level, the vice president, Network
Operations, can initiate the AMP process 5 and the Postal Service Facilities group
created a sophisticated mapping and DUO candidate office identification tool. 6
Therefore, we believe BMA managers can appropriately initiate efforts in conjunction
with the Postal Service areas to study and act on centralizing BMA.

Additionally, the SOP appeared complete and thorough but may have included too
much detail and, therefore, hindered area and district management from conducting
centralization studies. Specifically, the SOP contained duplicate and outdated
procedures and prescribed tasks did not always flow in chronological order. For
example, we identified 10 duplicate tasks out of 115 individual tasks in the SOP. In
addition, the SOP was confusing at times, stating, “There must be no premature
communications with customers regarding centralization plans prior to final AVP 7
approval.” However, the feasibility study conducted before approval includes sections
asking for a mailer impact analysis and an evaluation of how to mitigate customer
concerns.

BMA personnel stated they did not issue the SOP as a management instruction and did
not go through corporate publishing for agency-wide approval. Rather, they issued the
SOP as a guide. BMA used the AMP 8 and Post Office Discontinuance Guide 9 as a
template to develop the SOP and attempted to give centralization teams the opportunity
to consider all possible scenarios when conducting centralization studies. BMA did not
intend all SOP tasks to apply in all instances, such as the centralization of very small
units to larger units nearby. This intent was not always clear to district management
responsible for conducting centralization tasks. For example, one manager who
centralized some units prior to SOP issuance stated that if the district had to adhere to
the current process no centralizing would occur. The manager stated that the work the
SOP requires goes too far. Other district BMEU managers and acceptance personnel
indicated awareness of the SOP but did not strictly adhere to it when centralizing.


3
  The AMP initiative is the consolidation of all originating and/or destination distribution operations from one or more
Post Offices/facilities into other automated processing facilities for the purpose of improving operational efficiency
and/or service.
4
  DUO is designed to increase operational efficiency by relocating delivery operations into “hub facilities” within a
district.
5
  Handbook PO-408, Area Mail Processing Guidelines, Section 1-4, March 2008.
6
  Delivery Unit Optimization Guidelines, Version 1.1, December 2010.
7
  Area Operations Vice President.
8
  Handbook PO-408.
9
  Handbook PO-101, Post Office Discontinuance Guide, August 2007.



                                                            2
Business Mail Acceptance Centralization Process                                                FF-AR-11-015



As a result, and as discussed below, we found that significant opportunities exist to
further centralize BMA, realize operational benefits by centralizing BMA, and greatly
improve operational efficiencies.

Opportunities to Further Centralize BMA

We contacted all 74 districts to determine the extent of BMA centralization nationwide.
We determined that 26 districts centralized the BMA process to varying degrees. These
districts discontinued acceptance at 2,003 affected units, merging them into 355
centralized acceptance centers (CACs). Ten districts reported extensive centralization,
while 16 other districts reported limited efforts. 10

We identified 19,639 finance units nationwide that reported Permit Imprint and
Periodicals revenue during FY 2010. 11 We judgmentally selected three districts that
represented varying degrees of centralization to analyze and determine whether
opportunities existed to further centralize BMA:

        The Northern New England District reported a limited centralization effort in
         which three units were centralized into one CAC.

        The Westchester District reported centralizing 165 units into 11 CACs.

        The Western Pennsylvania District reported no centralization performed.

We mapped and analyzed all sites that reported business mail revenue in the Western
Pennsylvania, Northern New England, and Westchester Districts; and then reviewed the
results to determine whether districts could conduct initial or additional centralizations.
Based on SOP guidelines, 12 the potential exists to move nearly all acceptance
operations to PostalOne! units, which are generally staffed with more experienced
personnel using automated processes and controls to conduct mail acceptance. For
example, we found the Western Pennsylvania District could centralize 422 of 425
(99.3 percent) non-PostalOne! units into 87 PostalOne! units. We observed similar
results when we mapped permit revenue units in the Northern New England District.
Our review of the permit revenue map indicated that an overwhelming number of units
not using PostalOne! were within a 1 0-mile radius of existing PostalOne! units and
almost all of the remaining units fell within a 20-mile radius. Although the Westchester
District previously performed a significant amount of centralization, we found 25 of the
38 units not using the PostalOne! reporting technology were within a 10-mile radius of
18 existing PostalOne! units and only four of those 38 were outside a 20-mile radius.
Table 1 provides details of our analysis.




10
   We classified districts that centralized 50 or fewer units as “limited efforts.”
11
   Approximately 13,000 of these are retail units not using PostalOne! reporting technology.
12
   The SOP recommends a 20-mile limit on centralization.


                                                          3
Business Mail Acceptance Centralization Process                                                       FF-AR-11-015



                  Table 1 – Analysis of Business Mail Revenue Locations
                                                                             Number of           Number of
                                                                                Non-                Non-
                                                           Number of         PostalOne!          PostalOne!
                                        Number of             Non-          Units within a     Units outside a
                       Number of        PostalOne!         PostalOne!          10-mile         20-mile Radius
                         Units            Units              Units            Radius of          of Existing
                       Reporting        Reporting          Reporting          Existing           PostalOne!
                        Permit            Permit             Permit          PostalOne!             Units
    District           Revenue           Revenue            Revenue             Units
Northern New
                           614               171               443                342                   11
England
Westchester                 56                18                38                 25                    4
Western
                           512                87               425                316                    3
Pennsylvania
Source: Enterprise Data Warehouse (EDW) in the Postal Service Corporate Reporting Portal.


Map 1 shows FY 2010 business mail revenue sites in the Westchester District with
20-mile radius rings around the blue highlighted PostalOne! sites. Yellow highlighted
points represent sites outside a 20-mile radius of existing PostalOne! sites.

                Map 1 – Westchester District Business Mail Revenue Sites




              Source: Revenue sites by reporting technology plotted using the BatchGeo application.




                                                       4
Business Mail Acceptance Centralization Process                                                       FF-AR-11-015



Operational Benefits of Centralizing BMA

We visited two districts that previously centralized acceptance functions. We
interviewed management, clerks, and customers from two judgmentally selected CACs
and two impacted units in each district. District management stated the goals of the
centralization effort included improved efficiency, revenue protection, better visibility,
and accountability. Both districts stated that centralization met their expectations. All
four receiving units reported they were able to absorb the additional volume without
adding workhours because the increased workload was minimal. Comments from
affected units indicated centralization alleviated the burden of staying current with
changing business mail regulations and eliminated daily SOX reporting that is required
even when units accepted no mailings.

In one district which centralized units beyond the 20-mile limitation suggested in the
SOP, customers adapted well to the changes. The district sent letters explaining the
changes and directions to the new unit and made extensive use of Convenience
Deposit Points (CDPs) to mitigate customer inconvenience. By establishing CDPs at
affected sites located farther away from the CACs, customers could continue to drop
mailings of five trays or less at or near the units they previously used. District personnel
also linked Point-of-Service (POS) terminals at the affected sites to the new unit’s
PostalOne! system, allowing customers to continue making deposits and paying fees
locally. 13

We surveyed BMEU management in all 74 districts to determine the extent of
centralization, obtained their opinions on the SOP, and ascertained how they used the
SOP. We received 71 responses from 65 districts, 14 including 23 responses from 21 of
the 26 centralized districts. 15 Managers stated that they realized many benefits from
centralization and that 11 of the 21 districts are considering more centralization. District
BMEU managers provided us with the following benefits:

    Increased revenue protection
    Improved customer service
    Greater SOX compliance
    Workhour savings
    Ability to better focus mail acceptance resources
    Better information consistently provided to customers

In December 2010, the U.S. Postal Service Office of Inspector General (OIG) hosted an
external blog for the public to comment on BMA entry points. Sixty-seven percent of the
responses supported the Postal Service limiting business mail entry points to those
units on PostalOne! and with personnel familiar with complex mailing requirements.

13
   The POS system is the primary hardware and software system used to conduct sales transactions. Units cannot
post fee payments and trust fund deposits directly to PostalOne!, which is the primary trust management application
with built-in controls over mail acceptance.
14
   Six districts provided duplicate responses.
15
   We received responses from both the marketing manager and business mail entry manager for two of the
21 previously centralized districts.


                                                         5
Business Mail Acceptance Centralization Process                                                       FF-AR-11-015



Bloggers commented that BMA requirements are complicated and acceptance
personnel may interpret requirements differently. Others expressed concern that
untrained personnel at some units accept mail that does not meet standards for the
discounted rates claimed.

Improving Operational Efficiency

Current BMA units do not always have sufficient workload to match workhours and the
Postal Service did not have metrics in place to effectively manage mail acceptance
workhours.

We identified 1,773 finance numbers nationwide reporting approximately 7.1 million
business mail entry (Labor Distribution Code (LDC) 79) 16 workhours during FY 2010.
Units associated with these finance numbers processed approximately 10.4 million
business mailings. These units may be BMEUs, detached mail units (DMUs), or retail
units. We noted that centralized CAC sites in districts we visited absorbed additional
workload resulting from impacted sites without a corresponding increase in workhours.
To understand why units absorb the additional work following centralization, we
assessed the efficiency of LDC 79 workhours by requesting the rate and standards from
BMA.

We determined that BMA did not measure how efficiently acceptance personnel perform
acceptance tasks and only provided tools to monitor compliance with tasks such as Mail
Evaluation Readability and Lookup INstrument (MERLIN) 17 verifications and completion
of SOX certification documentation. Although BMA is developing time measurements for
a staffing and scheduling tool in PostalOne!, the application is incomplete and there are
no efficiency goals for use after that tool is available. Further, BMA reported they did not
establish efficiency measurement factors, such as average mailings per hour or average
minutes per mailing.

A previously issued OIG audit report 18 determined that each Postal Service area
established goals for retail efficiency and in FY 2009 the lowest retail efficiency goal
was 93 percent. Retail units received earned workhour credit for BMA activities in the
efficiency calculation at a rate of 28.4 minutes per mailing. We determined that LDC 79
units nationwide achieved overall efficiency rates 19 of approximately 66 percent in
FY 2009 and 69 percent in FY 2010. 20 We believe it is reasonable for the Postal Service
to improve the efficiency of LDC 79 workhour usage to 93 percent by centralizing
acceptance, re-allocating budgeted workhours, and right-sizing staffing levels. This

16
   Business mail entry workhours are reported in Labor Distribution Code (LDC) 79. An LDC is a 2-digit code that
identifies major work assignments of employees. The first number identifies the function within an office and the
second identifies the type of activity being performed. LDC 79 workhours are part of the marketing and
communications function and are used for mailing requirements and business mail entry activities.
17
   An automated tool that assists BMA employees with verification processes by comparing certain mail
characteristics against established Postal Service standards.
18
   Efficiency of Retail Customer Service Operations (Report Number MS-AR-10-004, dated July 28, 2010).
19
   Efficiency rate calculations includes mail acceptance activity at DMUs.
20
   We divided the actual number of postage statements processed by the potential number of postage statements
processed based on the number of LDC 79 workhours at a rate of 28.4 minutes per mailing.


                                                          6
Business Mail Acceptance Centralization Process                                FF-AR-11-015



would save the Postal Service approximately $60 million annually. See Appendix B for
information on the monetary impact.

Other Matters

BMA is currently conducting a redesign study that may include redefining the rules for
preparing, accepting, and verifying mail. They are considering a streamlined acceptance
process where customers can present mail with Intelligent Mail Barcodes (IMB) and
electronic documentation at any Postal Service access point and pay postage using an
automated process from a central account. Mail preparation is verified electronically
during processing, using passive sorting machine scans and little or no manual
intervention. Therefore, basic business mail could have relaxed preparation
requirements; however, the redesign is in the early stages and not fully developed. BMA
was unable to provide a timeline for implementation other than to say it would be
implemented in stages. Additionally, as the process evolves, some basic business mail
not meeting streamlined acceptance requirements may still require manual verification.
Therefore, centralizing BMA could be a valuable component of the streamlined
acceptance process. For example, reducing the number of locations that would accept
mail that requires manual verification could incentivize customers to use IMB barcodes
and electronic documentation if the Postal Service linked that use to expanded
streamlined acceptance access points.

Recommendations

We recommend the vice president, Mail Entry and Payment Technology, in conjunction
with the vice presidents, Area Operations:

1. Adopt a standardized, clear process to guide each district on how to conduct a
   centralization feasibility study and update the Business Mail Entry Centralization
   Standard Operating Procedure accordingly.

2. Require each district to conduct a centralization feasibility study, document the
   results, and take action based on the results of the study, as appropriate.

3. Manage business mail entry workhour usage to achieve 93 percent efficiency and
   develop tools to monitor performance.

4. Establish annual goals for business mail entry workhour efficiency to include
   measuring performance against goals.




                                                  7
Business Mail Acceptance Centralization Process                                FF-AR-11-015




Management’s Comments

Management agreed with recommendations 1 and 4, indicating BMA is currently
updating the SOP to reduce the overall complexity of the original process outlined. BMA
will distribute the SOP for field use by March 30, 2012, to coincide with the start of
network optimization deployment. In addition, BMA will devise performance metrics by
September 30, 2012, based on a staffing tool currently in development.

Management partially agreed with recommendation 2, stating that during FY 2012, BMA
will follow the network optimization timeline and focus centralization efforts on reacting
to the projected impact on BMA operations and mailers. They will evaluate the need for
additional centralization beginning October 1, 2012, following the completion of network
optimization. The target completion date is October 1, 2013.

Management partially agreed with recommendation 3 and stated the Postal Service is
currently developing, vetting, and validating a management tool, scheduled for
deployment by September 30, 2012. The tool will help determine recommended staffing
levels. Management disagreed with a targeted efficiency rate of 93 percent, stating that
similar systems use an 80 percent efficiency rate to account for inherent randomness
and variability in customer arrival times and processing requirements. Further, they
disagreed with the monetary impact amount because it was based on the 93 percent
efficiency rate.

See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to recommendations 1, 2, and 4, and management’s actions
should resolve the issues identified in the report.

The OIG considers management’s comment on r ecommendation 3 to be partially
responsive because they plan to implement a tool enabling Postal Service management
to make more informed staffing decisions and enable monitoring. However, the OIG
disagrees that 80 percent is the most efficient rate achievable for business mail entry
operations. For FY 2010, the OIG identified nine districts that met or exceeded the
proposed 93 percent goal, and an additional seven districts have achieved between
83 and 93 percent efficiency. Further, the Postal Service can control much of the
randomness and variability which management states are the obstacles in achieving
greater efficiencies. For example, the Postal Service has control over the hours of
operation, can manage staffing levels to match service needs, and can schedule
appointments for mailers. Additionally, as stated in the report, 93 percent was the lowest
retail efficiency goal. The OIG considers the 93 percent efficiency goal attainable for
business mail entry operations and, the monetary impact calculations based on the
93 percent efficiency rate, to be conservative and reasonable.



                                                  8
Business Mail Acceptance Centralization Process                             FF-AR-11-015




The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                  9
Business Mail Acceptance Centralization Process                                    FF-AR-11-015



                                  Appendix A: Additional Information

Background

In FY 2010, the Postal Service reported approximately $31.2 billion in Permit Imprint
and Periodicals business mailings revenue from 19,639 facilities, which include BMEUs
and retail units. 21 A BMEU is an area at a postal facility designated to accept bulk
business mail. Bulk business mail must meet minimum quantities and specific
preparation requirements to receive certain discounts. BMEUs use the PostalOne!
system for recording business mail and Periodicals transactions. PostalOne! has built-in
controls that assist acceptance personnel with properly accepting the mail and
managing the daily business of the unit.

Postal Service retail units provide an array of postal products and services to the
general public and business customers, including:

      Selling stamps and mailing supplies.
      Accepting all classes of mail and individual mailpieces.
      Selling money orders.
      Providing post office box and caller service.
      Accepting application for passports.

Some retail units also accept limited amounts of bulk business mail; however, mailings
may be infrequent. In FY 2010, we determined that approximately 13,000 retail units
nationwide reported Imprint Permit and Periodicals revenue using systems other than
PostalOne!.22

Clerks at BMEUs are eligible to receive basic training consisting of an extensive 2-week
mail acceptance training session for accepting business mail offered at the National
Center for Employee Development in Norman, OK. Conversely, personnel in retail units
are only eligible for approximately 12 hours of online training as a base. Regardless of
the system and the level of training, it is critical that all employees accepting business
mail adhere to Postal Service policies to ensure the Postal Service receives proper
compensation for business mail services.

The Postal Service reported losses of $3.8 billion and $8.5 billion in FYs 2009 and
2010, respectively, due, in part, to decreased mail volume and increased competition.
Within this environment, the Postal Service must continue to explore opportunities to
improve its processes and eliminate redundancies in its system. Several functional
areas within the Postal Service required area management to study and centralize
operations to achieve gains in efficiency. For instance, the Postal Service continues to
consolidate mail processing facilities and delivery units to better utilize excess capacity
and realize cost savings and is contracting the retail network. The Postal Service has
not required area management to study and centralize BMA.

21
     Retail units include Postal Service offices, stations, and branches.
22
     Non-PostalOne! systems include POS, Integrated Retail Terminal, and eMoves.



                                                         10
Business Mail Acceptance Centralization Process                                                    FF-AR-11-015




Objectives, Scope, and Methodology

Our objectives were to evaluate the Postal Service’s efforts to centralize the BMA
process and assess the opportunity for additional centralization. To accomplish these
objectives we:

    Conducted site visits at two judgmentally selected districts that previously
     centralized the acceptance function to gain an understanding of the impacts on the
     Postal Service and its stakeholders.

    Analyzed the potential for additional centralization for three judgmentally selected
     districts by mapping permit and Periodicals revenue reported in the EDW 23 for
     FY 2010. We discussed the results with one district that did not previously centralize
     acceptance.

    Analyzed the SOP by breaking the process into tasks and organized the tasks
     according to what it is, who performs it, what steps are involved, and how those
     steps are accomplished.

    Conducted a nationwide survey of district BMEU management to determine the
     extent of BMA centralization, how the SOP was perceived, and how it was used. We
     discussed the results with the Postal Service.

    Computed the LDC 79 efficiency rates for FYs 2009 and 2010 by:

     o Obtaining and analyzing Postal Service facilities’ LDC 79 workhours from the
       eFlash 24 System by area and obtaining business mailings attributable to those
       LDC 79 workhours from Application System Reporting (ASR) in the Postal
       Service Corporate Reporting Portal. 25

     o Calculating LDC 79 efficiency percentages using the time credited for mail
       acceptance activities in the retail Customer Service Variance (CSV) 26 application
       and a 93 percent efficiency goal.

    Hosted online discussions on whether or not the Postal Service should limit business
     mail entry points and reviewed 23 responses.


23
   A warehouse that provides a single repository for managing the Postal Service's corporate data assets and a
common source of corporate data across Postal Service organizations.
24
   A weekly reporting management system that combines data from Delivery, Mail Processing, Employee Relations,
Labor Relations, and Finance.
25
   Consolidates reporting applications hosted under the EDW and ASR banners. ASR supports application-specific
reporting for data not captured within EDW.
26
   A management tool that provides earned workload using nationally established factors. This model analyzes the
number of employees, workhours, workload, and productivity performance using automated data sources. Managers
and supervisors can use the reports generated from this model to right-size the number of employees needed to
support the earned workload.


                                                       11
     Business Mail Acceptance Centralization Process                                       FF-AR-11-015



     We conducted this performance audit from October 2010 through September 2011 in
     accordance with generally accepted government auditing standards and included such
     tests of internal controls as we considered necessary under the circumstances. Those
     standards require that we plan and perform the audit to obtain sufficient, appropriate
     evidence to provide a reasonable basis for our findings and conclusions based on our
     audit objective. We believe that the evidence obtained provides a reasonable basis for
     our findings and conclusions based on our audit objective. We discussed our
     observations and conclusions with management on July 28, 2011, and included their
     comments where appropriate.

     We relied on data obtained from EDW, ASR, CSV and eFlash. We assessed the
     reliability of the data by tracing and verifying recorded transactions to source data and
     interviewing knowledgeable officials about the data. For example, we compared source
     data in PostalOne! to the number of postage statements reported by ASR queries. We
     determined that the data were sufficiently reliable for the purposes of this report.

     Prior Audit Coverage

                                            Final
                       Report              Report           Monetary
 Report Title          Number               Date             Impact           Report Results
Efficiency of      MS-AR-10-004           7/28/2010          $613      Opportunities exist to reduce
Retail                                                       million   retail Customer Service
Customer                                                               workhours by 14.3 million and
Service                                                                increase operational efficiency
Operations                                                             to 93 percent. Some district
                                                                       offices consolidated BMA
                                                                       operations but others have yet
                                                                       to do so. Management agreed
                                                                       with our results.
Mail               GAO-10-731             6/16/2010           None     The Postal Service developed
Processing                                                             several initiatives to reduce
Network                                                                costs and increase efficiency;
Initiatives                                                            however, moving forward on
Progressing,                                                           some initiatives has been
and Guidance                                                           challenging because of the
for                                                                    complexities involved in
Consolidating                                                          consolidating operations.
Area Mail                                                              Further, it has followed Postal
Processing                                                             Service guidance and
Operations                                                             consistently applied criteria in
Being Followed                                                         consolidating its AMP facilities.




                                                       12
Business Mail Acceptance Centralization Process                                                       FF-AR-11-015



                                     Appendix B: Monetary Impact


             Finding              Impact Category                                          Amount
         Centralizing BMA Questioned Costs 27                                           $ 113,009,745
         Centralizing BMA Funds Put to Better Use 28                                      118,969,551
               Total                                                                    $ 231,979,296

The Postal Service monitors retail operations from headquarters and provides tools for
managing staffing levels and measuring efficiency. One of those tools, CSV, presents
retail efficiency as a percentage. 29 We chose CSV standards to measure LDC 79
performance because part of the retail unit efficiency measurement relates to BMA. In
addition, a pr eviously issued OIG audit report 30 determined that each Postal Service
area established goals for retail efficiency and, in FY 2009, the lowest retail efficiency
goal was 93 percent. Retail units received earned workhour credit for BMA activities in
the efficiency calculation at a rate of 28.4 minutes per mailing.

Clerks in LDC 79 offices are generally more proficient with BMA because of the number
and variety of mailings they accept and the extensive mail acceptance training offered.
Because of the experience and training available to LDC 79 clerks, we believe a
workhour credit factor of 28.4 minutes per mailing for acceptance activities is
reasonable, and 93 percent efficiency is attainable for LDC 79 workhours.

By achieving a 93 p ercent LDC 79 workhour efficiency at BMA units, excluding mail
acceptance at DMUs, the Postal Service could have saved over 2.9 million overtime
hours 31 in FYs 2009 and 2010, or $60 million in FY 2009 and $53 million FY 2010.
Further, the Postal Service could save an additional $59 million in FY 2012 and
$60 million FY 2013. 32




27
   Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etc. May be
recoverable or unrecoverable and is usually a result of historical events.
28
   Funds that could be used more efficiently by implementing recommended actions.
29
   Retail efficiency in the CSV application is calculated by dividing Function 4 earned workhour credit by the actual
workhours used in a retail unit. Earned workhours are calculated using established time factors and actual workload.
Workload data is input manually by a review team or through automatic feeds from Postal Service databases.
Efficiency is calculated as a percentage. Area offices determine annual goals.
30
   Efficiency of Retail Customer Service Operations (Report Number MS-AR-10-004, dated July 28, 2010).
31
   Based on excess capacity of 1,568,549 workhours in FY 2009 and 1,359,642 workhours in FY 2010 at a
93 percent efficiency rate from a base of 28.4 minutes per mailing.
32
   We adjusted our monetary impact calculation for a possible reduction related to workhours used in DMUs related to
our audit of Mail Verification Procedures at DMUs (Project Number 11RG013MS000).


                                                         13
Business Mail Acceptance Centralization Process                FF-AR-11-015




                           Appendix C: Management’s Comments




                                                  14
Business Mail Acceptance Centralization Process        FF-AR-11-015




                                                  15
Business Mail Acceptance Centralization Process        FF-AR-11-015




                                                  16
Business Mail Acceptance Centralization Process        FF-AR-11-015




                                                  17
